«*

In the

Supreme Court of the United States
Richard A. Poplawski, pro se
Petitioner,

No.

v.
Secretary, Pennsylvania
Department of Corrections,
Respondent.

On Petition for a Writ of
Certiorari to the Third
Circuit Court of Appeals

Certificate of Mailing

I, the petitioner, Richard Andrew Poplawski, declare under penalty of perjury
pursuant to 28 U.S.C § 1746, that the foregoing
PETITION FOR A WRIT OF CERTIORARI
(and attached papers) has been filed by means of placing it in the prison mail receptacle
(on SCI Phoenix's M-Unit, B-pod), on the date indicated, in satisfaction of Supreme
Court Rule 29.2.
I have prepaid postage fees for Certified U.S. Mail (# 701S 3DIO DODE im L47b

Date

Richard A. Poplawski, petitioner, pro se
SCI Phoenix, #KB7354
1200 Mokychic Drive
Collegeville, PA 19426

Richard Andrew Poplawski
S.C.I. Phoenix, #KB7354
1200 Mokychic Drive
Collegeville, PA 19426

ti

Joseph G. Fulginiti, Esq.
PADOC Ofc. of Chief Counsel
1920 Technology Parkway
Mechanicsburg, PA 17050

Bret Grote, Esq.
Abolitionist Law Center
Box 8654
Pittsburgh, PA 15221

Re: Reid et al. v. Secretary, #20-2115 (3d Cir. 2020)

Esteemed Counselors:

'7bd \j~oyJlrxyy. S' ,

You are being served a true and exact copy of my Petition for a Writ
of Certiorari, filed in the Supreme Court of the United States. All attach­
ments are included.
Be advised: if you wish to oppose this petition, you must file a brief
in opposition within 30 days of the petition being placed on the docket. See
Supreme Court Rule 15.3.
Additionally:
Counsel are admonished that they have an obligation to the Court to
point out in the brief in opposition, and not later, any perceived mis­
statements made in the petition. Any objection to consideration of a
question based on what occured in the proceedings below . .. may be
deemed waived unless called to the Court's attention in the brief in
opposition.
Supreme Court Rule 15.2 (emphasis added).
The mailing address for the Court is: 1 First Street NE, Washington,
DC 20543.

